                                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                Reporting Entity: Amtrak ‐ OIG
              Month Ending Date: 12/31/2009

                                                              Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          Recovery Act TAFS      Award Type        US Indicator       Total Obligations      Total Gross       Direct or          Ordering TAFS
No.                                                                                                                       Outlays       Reimbursable
      Amtrak ‐ OIG                (69‐0724 2009 \ 2013)  Formula and Block       Y ‐ US              $239,014            $211,579 
                                  Amtrak ‐ OIG ‐ Recovery     Grant
  1                               Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                 Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau        FY 2009 Non‐Recovery    Total FY 2009      Total FY 2009    FY 2010 Non‐Recovery    Total FY 2010    Total FY 2010 
No.                                      Act TAFS           Obligations       Gross Outlays          Act TAFS           Obligations     Gross Outlays
  1 Amtrak ‐ OIG                  Amtrak - OIG                    $228,694          $228,465 Amtrak - OIG                    $128,090           $94,458
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                                         Copy of Amtrak OIG Monthly Reporting 123109.xls
                                                                                             OIG Recovery Act Monthly Report

  Monthly Update Report Data (sheet 2 of 4) Version 4.0a
           Reporting OIG: Amtrak ‐ OIG
       Month Ending Date: 12/31/2009

                                     FTE Working on Recovery
                                                                                                                                                                   Testimonies:
          Fiscal Year                   2009              2010                           Cumulative
           Newly Hired FTE 
                                         0.38                       1.03                     1.41                                                          Provided (monthly):        0
               (cumulative):

  FTE Funded by Recovery 
                                         0.38                       1.03                     1.41                                                       Provided (cumulative):        0
   Act Funds (cumulative):

         FTE Not Funded by 
        Recovery Act Funds               0.74                       0.85                     1.59
              (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations / 
                   Complaints                          Whistleblower Reprisal Allegations                               Investigations                                                                 Training / Outreach
                                                                                                                                                                     Reviews
                 Monthly Data                                       Monthly Data                                        Monthly Data                              Monthly Data                             Monthly Data

                                                                                                                                                                                                       Training Sessions 
                    Received:             0                                Received:          0               Opened (this month):                0      Initiated (this month):      0                                            0
                                                                                                                                                                                                               Provided:

                                                                                                            Active (as of the end of                   In Process (as of the end 
                                                                           Accepted:          0                                                   2                                   5             Individuals Trained:           0
                                                                                                                        the month):                              of the month):
                                                                                                                                                               Completed Final 
                                                                                                                                                                                                       Hours of Training 
                                                                                                                   Pending Decision:              0            Published Work         0                                            0
                                                                                                                                                                                                              Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim 
                                                                                                                                                                                                     Outreach Sessions 
                                                                                                             Closed without Action:               0            Published Work         0                                            0
                                                                                                                                                                                                           Conducted:
                                                                                                                                                                       Products:
                                                                                                                       Accepted for                          Unpublished Work 
                                                                                                                                                  0                                   0
                                                                                                                       Prosecution:                                  Products*:
                                                                                                                Prosecution Denied:               0

                                                                                                           Referred for Alternative 
                                                                                                                                                  0
                                                                                                                        Resolution:
     Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                       Training Sessions 
                    Received:             0                                Received:          0              Closed without Action:               0          Published Work        0                                               0
                                                                                                                                                                                                               Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim 
                                                                                                                         Accepted for 
                                                                           Accepted:          0                                                   0          Published Work        0                Individuals Trained:           0
                                                                                                                         Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                          Unpublished Work                             Hours of Training 
                                                                                                                Prosecution Denied:               0                                3                                               0
                                                                                                                                                                   Products*:                                 Provided:

                                                                                                           Referred for Alternative                                                                  Outreach Sessions 
                                                                                                                                                  0          Cumulative Total:        3                                            5
                                                                                                                        Resolution:                                                                        Conducted:

                                                                                                                   Cumulative Total:              0


*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                           Copy of Amtrak OIG Monthly Reporting 123109.xls
                                       OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Amtrak ‐ OIG
  Month Ending Date: 12/31/2009

       No.                     OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Scheduled program management assessments for a major Amtrak programs being funded through ARRA
                     Continued work with Amtrak's Police and Security department to assess the risk levels of each of their key ARRA
        2
                     programs.
        3            Prepare reports from reviews
        4
        5
        6
        7
        8
        9
        10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Continue the risk assessment of the Police and Security programs
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                              Copy of Amtrak OIG Monthly Reporting 123109.xls
                                                                     OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Amtrak ‐ OIG
   Month Ending 
                 12/31/2009
           Date:

                                                                                       TRAINING ACTIVITIES
                                                                                                                                                 Hours of
                                                                                                                      Length of                  Training                  Presentation    Average
                                                Target                               Training Location   Date of                   Number of                   Cost of
     No.               Type of Training                        Title of Training                                       Training                 Provided                    with Other    Evaluation
                                               Audience                                 (City, State)    Training                 Participants                 Training
                                                                                                                       (hours)                   (length x                     OIGs         Rating
                                                                                                                                               participants)
      1                                                                                                                                                    0
      2                                                                                                                                                    0
      3                                                                                                                                                    0
      4                                                                                                                                                    0
      5                                                                                                                                                    0
      6                                                                                                                                                    0
      7                                                                                                                                                    0
      8                                                                                                                                                    0
      9                                                                                                                                                    0
      10                                                                                                                                                   0
      11                                                                                                                                                   0
      12                                                                                                                                                   0
      13                                                                                                                                                   0
      14                                                                                                                                                   0
      15                                                                                                                                                   0
                                                                                                                       TOTAL                 0             0

                                            OUTREACH ACTIVITIES
                                               Number of
                                             Organizations                              Outreach
                    Organization to which                       Description of                            Date of
     No.                                     Represented at                           Location (City,
                     Outreach Provided                             Outreach                              Outreach
                                               Outreach                                   State)
                                                Session
                                                            Fraud, Waste and Abuse
      1         Amtrak personnel                         24                          Indianapolis, IN     6/24/2009
                                                            under ARRA
                                                            Fraud, Waste and Abuse
      2         Amtrak personnel                         33                          Philadelphia, PA     7/15/2009
                                                            under ARRA
                                                            Fraud, Waste and Abuse
      3         Amtrak personnel                         15                          New York, NY         8/28/2009
                                                            under ARRA
                Amtrak personnel and                        Fraud, Waste and Abuse
      4                                                  65                          Philadelphia, PA      9/3/2009
                contractors                                 under ARRA
                                                            Fraud, Waste and Abuse
      5         Amtrak personnel                          6                          Bear, DE            10/21/2009
                                                            under ARRA
      6
      7
      8
      9
      10
      11
      12


                                                                                                                                               Copy of Amtrak OIG Monthly Reporting 123109.xls
     OIG Recovery Act Monthly Report

13
14
15




                                       Copy of Amtrak OIG Monthly Reporting 123109.xls
